               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-00026-306




     Community Based Outpatient 

            Clinic Reviews 

                   at 

    VA Maryland Health Care System 

         Baltimore, Maryland 





September 11, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                   CBOC Reviews at VA Maryland HCS



                                           Glossary
                       C&P       credentialing and privileging
                       CBOC      community based outpatient clinic
                       CDC       Centers for Disease Control and Prevention
                       EHR       electronic health record
                       EOC       environment of care
                       FPPE      Focused Professional Practice Evaluation
                       FY        fiscal year
                       HCS       Health Care System
                       LCSW      licensed clinical social worker
                       MH        mental health
                       MSEC      Medical Staff Executive Committee
                       NC        noncompliant
                       NCP       National Center for Health Promotion and
                                 Disease Prevention
                       OIG       Office of Inspector General
                       VHA       Veterans Health Administration
                       VISN      Veterans Integrated Service Network
                       WH        women’s health




VA OIG Office of Healthcare Inspections
                                                                                     CBOC Reviews at VA Maryland HCS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    6

  CBOC Characteristics .............................................................................................              6

  C&P ........................................................................................................................    7

  EOC and Emergency Management ........................................................................                           8


Appendixes
  A. VISN 5 Director Comments ...............................................................................                    10

  B. VA Maryland HCS Director Comments ..............................................................                            11

  C. OIG Contact and Staff Acknowledgments .........................................................                             14

  D. Report Distribution .............................................................................................           15





VA OIG Office of Healthcare Inspections
                                                               CBOC Reviews at VA Maryland HCS



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOC during the week of July 15, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC (see Table 1).

    VISN               Facility               CBOC Name                   Location
      5            VA Maryland HCS            Loch Raven                Baltimore, MD
                                     Table 1. Site Inspected

Review Results: We made recommendations in one review area.

Recommendations:       The VISN and Facility Directors, in conjunction with the

respective CBOC managers, should take appropriate actions to: 


   Ensure that clinicians administer pneumococcal vaccines when indicated. 


   Ensure that clinicians document all required tetanus vaccine administration elements

    and that compliance is monitored.




VA OIG Office of Healthcare Inspections                                                     i
                                                         CBOC Reviews at VA Maryland HCS


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes
A and B, pages 10–13, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                    JOHN D. DAIGH, JR., M.D.
                                                   Assistant Inspector General for
                                                        Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                ii
                                                                        CBOC Reviews at VA Maryland HCS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                            CBOC Reviews at VA Maryland HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. One CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                  2
                                                                                                                     CBOC Reviews at VA Maryland HCS



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                            Uniques FY             Visits FY
VISN            Parent Facility                  CBOC Name                 Locality6                                                   CBOC Size8
                                                                                              20127                  20127
                                                  Cambridge
                                                                       Rural                     5,350              40,068                 Large
                                               (Cambridge, MD)
                                                  Fort Howard
                                                                      Urban                      6,369              24,612                 Large
                                             (Fort Howard, MD)
                                                  Glen Burnie
    5         VA Maryland HCS                                         Urban                      6,204              36,824                 Large
                                              (Glen Burnie, MD)
                                                  Loch Raven
                                                                      Urban                     11,341              53,153              Very Large
                                                (Baltimore, MD)
                                                Pocomoke City
                                                                       Rural                     1,873               7,966                Mid-Size
                                            (Pocomoke City, MD)
                                                              Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                         CBOC Reviews at VA Maryland HCS



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 20 patients who received a cervical cancer screening at the VA Maryland
HCS’s CBOCs.

Generally the CBOCs assigned to the parent facility name were compliant with the
review areas; therefore, we made no recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or

9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

12
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                           CBOC Reviews at VA Maryland HCS


near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

          NC                                       Areas Reviewed
                       Staff screened patients for the tetanus vaccination.
                       Staff administered the tetanus vaccine when indicated.
                       Staff screened patients for the pneumococcal vaccination.
           X           Staff administered the pneumococcal vaccine when indicated.
           X           Staff properly documented vaccine administration.
                                              Table 4. Vaccinations

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.13 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of three patients with pre-
existing conditions who received their first vaccine prior to the age of 65. We did not
find documentation in any of the EHRs indicating that their second vaccinations had
been administered.

Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.14 We reviewed the EHRs of nine patients who received
a tetanus vaccine administration at the parent facility or its associated CBOCs and did
not find documentation of all the required information related to tetanus vaccine
administration in any of the EHRs.

Recommendations

1. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

2. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.

13
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.
14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                                 5
                                                                    CBOC Reviews at VA Maryland HCS



                                Onsite Reviews 

                         Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                                                         Loch Raven

                          VISN                                                 5

                     Parent Facility                                   VA Maryland HCS
                                                                            LCSW
                                                                Licensed Professional Counselor
                                                                       Nurse Practitioner
                   Types of Providers                               Primary Care Physician
                                                                          Psychiatrist
                                                                         Psychologist
                                                                          Pharmacist
       Number of Mental Health Uniques, FY 2012                              2,303

        Number of Mental Health Visits, FY 2012                              7,634

             Mental Health Services Onsite                                   Yes
                                                                       Audiology
                                                                      Dermatology
                                                                                15
                                                                        MOVE!
                                                                       Neurology
            Specialty Care Services Onsite                             Optometry
                                                                        Podiatry
                                                            Polytrauma/Traumatic Brain Injury
                                                                     Rheumatology
                                                                          WH
                                                                       Laboratory
           Ancillary Services Provided Onsite                           Nutrition
                                                                       Radiology
                                                                      Dermatology
                                                                          MH
                  Tele-Health Services
                                                                        MOVE!
                                                           Care Coordination Home Telehealth
                                        Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                           6
                                                             CBOC Reviews at VA Maryland HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the MSEC.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of ongoing professional practice evaluation activities.
                                          Table 6. C&P

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.


16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                   7
                                                         CBOC Reviews at VA Maryland HCS


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                               8
                                                            CBOC Reviews at VA Maryland HCS


Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

           NC                                     Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




17
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                  9
                                                          CBOC Reviews at VA Maryland HCS
                                                                              Appendix A

                            VISN 5 Director Comments


               Department of
               Veterans Affairs                             Memorandum


       Date:           August 20, 2013

       From:           Director, VISN 5 (10N5)

       Subject:        CBOC Reviews at VA Maryland HCS

       To:             Director, 54BA Healthcare Inspections Division (54BA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. VISN 5 Leadership has reviewed the comments provided by the
          Medical Center Director, VA Maryland Health Care System and concur
          with the responses and action plan for the recommendations outlined
          in the report.

       2. Should 	you require any additional information, please contact
          Mr Jeffrey Lee, Quality Management Officer, VA Capitol Health Care
          Network, VISN 5 at 410-691-7816.




       Fernando O. Rivera, FACHE




VA OIG Office of Healthcare Inspections                                               10
                                                            CBOC Reviews at VA Maryland HCS
                                                                                Appendix B

                   VA Maryland HCS Director Comments



               Department of
               Veterans Affairs                               Memorandum


       Date:           August 13, 2013

       From:           Director, VA Maryland HCS (512/00)

       Subject:        CBOC Reviews at VA Maryland HCS

       To:             Director, VISN 5 (10N5)

       1. The VAMHCS concurs with the results of the review of the Loch Raven
          CBOC and the combined VAMHCS CBOC documentation. We have
          developed an action plan and have begun implementation. We are
          pleased with the results and will use them as motivation across the
          VAMHCS CBOCs.

       2. The professionalism and cooperative manner demonstrated by the
          team was appreciated by all involved.

       3. The experience not only reinforced positive work	 practices but
          encouraged staff to continue to improve the quality of care to our
          veterans.

       4. If you have any additional questions, please contact my office at
          410-605-7016.




       Dennis H. Smith




VA OIG Office of Healthcare Inspections                                                 11
                                                       CBOC Reviews at VA Maryland HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

Concur

Target date for completion: December 2013

Facility Response:

	 The Clinical Center Director, Managed Care will send an email to all primary care
   providers and other Clinical Center Directors reiterating the necessity of
   re-vaccination for pneumococcal vaccine, if patients received one prior to age 65
   years. (September 2013).

	 The current Clinical Reminder will be reassessed to determine the best method for
   assuring veterans at high risk are identified at any age and revaccinated after age
   65. The Reminder will continue to identify all veterans over age 65 eligible for
   vaccination and be designed to identify veterans requiring revaccination after age
   65. Contact is being made with other VAMCs to determine the programming for
   their pneumococcal clinical reminder and possible use at the VAMHCS. (November
   2013)

	 Once changes in the Clinical Reminder are completed, the Clinical Center Director,
   Managed Care will send an email to all primary care providers, nurses, and other
   Clinical Center Directors explaining the revised features. (November 2013)

2. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: January 2014

Facility Response:

	 Clinical Informatics will add the date the Vaccine Information Statement (VIS)
   provided to patient and the edition of the VIS provided to the existing Clinical
   Reminders. (September 2013)



VA OIG Office of Healthcare Inspections                                            12
                                                        CBOC Reviews at VA Maryland HCS


	 The Clinical Center Director, Managed Care will send an email to all primary care
   providers and other Clinical Center Directors regarding the addition to the Clinical
   Reminder. (September 2013)

	 Use of the updated Clinical Reminder will be monitored for 3 months starting
   October 2013 and reported monthly to the Clinical Center Director, Managed Care.




VA OIG Office of Healthcare Inspections                                             13
                                                           CBOC Reviews at VA Maryland HCS
                                                                               Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Melanie Oppat, MEd, LDN, Project Leader
Contributors            Terri Julian, PhD, Team Leader
                        Jennifer Christensen, DPM
Other                   Donald Braman, RN
Contributors            Shirley Carlile, BA
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Cynthia Gallegos
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Joanne Wasko, LCSW
                        Sonia Whig, MS, LDN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  14
                                                      CBOC Reviews at VA Maryland HCS
                                                                          Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 5 (10N5)
Director, VA Maryland HCS (512/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Benjamin L. Cardin, Barbara A. Mikulski
U.S. House of Representatives: Elijah Cummings, Andy Harris, Dutch Ruppersberger,
John P. Sarbanes

This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                           15
